   DEPARTMENT OF HEALTH & HUMAN SERVICES                               OFFICE OF INSPECTOR GENERAL

                                                                       Washington, D.C. 20201




February 28, 2011

TO:           Yolanda J. Butler, Ph.D.
              Acting Director
              Office of Community Services
              Administration for Children and Families


FROM:         /Lori S. Pilcher/
              Assistant Inspector General for Grants, Internal Activities,
               and Information Technology Audits


SUBJECT:      Results of Limited Scope Review at the Community Action Agency of New
              Haven, Inc. (A-01-10-02504)


The attached final report provides the results of our limited scope review at Community Action
Agency of New Haven, Inc. In accordance with the American Recovery and Reinvestment Act
of 2009, the Office of Inspector General (OIG) will provide oversight and audit of programs,
grants, and projects funded by the Act.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to contact me at
(202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. We look forward to receiving
your final management decision within 6 months. Please refer to report number A-01-10-02504
in all correspondence.


Attachment
Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




   RESULTS OF LIMITED SCOPE
   REVIEW AT THE COMMUNITY
    ACTION AGENCY OF NEW
         HAVEN, INC.




                    Daniel R. Levinson
                     Inspector General

                      February 2011
                      A-01-10-02504
                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. 105-285, authorized the Community Services Block Grant (CSBG) program to
provide funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate causes and conditions of poverty in communities. CSBG Recovery Act funds
are distributed to CAAs using the existing statutory formula. Under the Recovery Act, CSBG
services may be expanded to those who are within 200 percent of the poverty line.

In Connecticut, the Department of Social Services (State agency) acts as the lead agency for
carrying out State activities for the CSBG program. The State agency is responsible for
approving the State’s CAA Recovery Act grant applications and monitoring CAAs for
compliance with program regulations. The State agency was awarded an additional $12 million
in Recovery Act funds for the State of Connecticut’s CSBG program.

Community Action Agency of New Haven, Inc. (CAANH), a nonprofit corporation, offers
services to low-income families and individuals. CAANH is funded primary through Federal,
State, and local grants. The core service areas in Connecticut include New Haven, East Haven,
Hamden, North Haven, and West Haven. During fiscal year 2009, the State agency awarded
CAANH with $2,431,552 in CSBG grant funds and a CSBG Recovery Act grant totaling
$1,538,789. The CSBG Recovery Act grant covers the period from July 1, 2009, through
September 30, 2010. For fiscal year 2009, CAANH received total Federal grant awards of about
$16,160,596.

OBJECTIVE

Our objective was to assess CAANH’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG Recovery Act program in accordance with
Federal requirements.

SUMMARY OF FINDINGS

Based on its current financial condition, CAANH’s financial viability is uncertain. Significant
operating deficiencies also existed at CAANH that impact its ability to manage and account for



                                                i
Federal funds and its capability to carry out CSBG Recovery Act programs in compliance with
Federal requirements. Specifically, CAANH did not ensure that:

   •   its subcontracts contained evidence of competitive bidding, a clear and accurate
       description of services, and services were provided to eligible clients;

   •   its payroll distribution process provided an after-the-fact certification of actual activity
       performed by salaried employees;

   •   its CSBG Recovery Act quarterly financial reports were supported by accounting records;
       and

   •   it properly accounted for equipment purchased with Federal funds.

In addition, CAANH did not fully comply with Federal requirements for bank deposits and
whistleblower protection. The deficiencies occurred because CAANH did not establish adequate
controls and procedures. As a result, CSBG Recovery Act funds may be at risk of not being
properly accounted for or expended in accordance with Federal requirements.

RECOMMENDATIONS

We recommend ACF work with the State to ensure that CAANH establishes adequate controls
and procedures to comply with Federal requirements. In addition, we recommend that CAANH
make financial adjustments or produce adequate documentation for unallowable services,
activities, and costs.

CAANH COMMENTS

In written comments to our draft report, CAANH generally agreed with our recommendations.
CAANH’s comments are included in their entirety as the Appendix.




                                                   ii
                                          TABLE OF CONTENTS

                                                                                                                        Page

INTRODUCTION..........................................................................................................1

          BACKGROUND .................................................................................................1
              Community Services Block Grant ...........................................................1
              Connecticut Department of Social Services ............................................1
              Community Action Agency of New Haven, Inc ......................................1
              Federal Requirements ..............................................................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................2
               Objective ..................................................................................................2
               Scope ........................................................................................................2
               Methodology ............................................................................................2

FINDINGS AND RECOMMENDATIONS ................................................................3

          FINANCIAL STABILITY ..................................................................................4
               Federal Requirements ..............................................................................4
               Poor Financial Stability............................................................................4

          PROCURING SUBCONTRACT SERVICES ....................................................5
               Federal Requirements ..............................................................................5
               Lack of Competitive Bids and Unsupported Subcontract Costs ..............5

          PAYROLL DISTRIBUTION SYSTEMS ...........................................................5
              Federal Requirements ..............................................................................5
              Inadequate Payroll Distribution Process ..................................................6

          FINANCIAL REPORTING.................................................................................6
               Federal Requirements ..............................................................................6
               Quarterly Expenditure Report Not Supported .........................................6

          PROPERTY MANAGEMENT ...........................................................................7
               Federal Requirements ..............................................................................7
               Inadequate Property Management ...........................................................7

          BANK DEPOSITS...............................................................................................8
               Federal Requirements ..............................................................................8
               Non-interest Bearing Accounts ................................................................8




                                                                    iii
    WHISTLEBLOWER PROTECTION .................................................................8
         Federal Requirements ..............................................................................8
         Lack of Policies and Procedures for Whistleblower Protection ..............8

    RECOMMENDATIONS .....................................................................................9

    CAANH COMMENTS ........................................................................................9

APPENDIX

    CAANH COMMENTS




                                                        iv
                                       INTRODUCTION

BACKGROUND

Community Service Block Grant Program

The Community Opportunities, Accountability, and Training and Educational Services Act of
1998, P.L. 105-285, authorized the Community Services Block Grant (CSBG) program to
provide funds to alleviate the causes and conditions of poverty in communities. Within the U.S.
Department of Health & Human Services, the Administration for Children and Families (ACF),
Office of Community Services administers the CSBG program. The CSBG program funds a
State-administered network of more than 1,000 local Community Action Agencies (CAA) that
create, coordinate, and deliver programs and services to low-income Americans. The CAAs
provide services and activities addressing employment, education, housing, nutrition, emergency
services, and better use of available income.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received an additional $1 billion for the CSBG program for
States to alleviate causes and conditions of poverty in communities. CSBG Recovery Act funds
are distributed to CAAs using the existing statutory formula. Under the Recovery Act, CSBG
services may be expanded to those who are within 200 percent of the poverty line.

Connecticut Department of Social Services

In Connecticut, the Department of Social Services (State agency) acts as the lead agency for
carrying out State activities for the CSBG program. The State agency is responsible for
approving the State’s CAA Recovery Act grant applications and monitoring CAAs for
compliance with program regulations. The State agency was awarded an additional $12 million
in Recovery Act funds for the State of Connecticut’s CSBG program.

The State agency contracts with CAAs for CSBG Recovery Act funding. Contracts with CAAs
contain provisions stating that contractors (i.e., CAAs) understand and agree that they shall be
liable for any State or Federal audit exceptions and shall return to the State agency all payments
to which exception has been taken or which have been disallowed because of such an exception.

Community Action Agency of New Haven, Inc.

Community Action Agency of New Haven, Inc. (CAANH), a nonprofit corporation, offers
services to low-income families and individuals. CAANH is funded primary through Federal,
State, and local grants. CAANH also receives grant funds from private sources to supplement
Federal and State funding. The core service areas in Connecticut include New Haven, East
Haven, Hamden, North Haven, and West Haven. During fiscal year (FY) 2009, the State agency
awarded CAANH with $2,431,552 in CSBG grant funds and a CSBG Recovery Act grant
totaling $1,538,789. The CSBG Recovery Act grant covers the period from July 1, 2009,
through September 30, 2010. For FY 2009, CAANH received total Federal grant awards of
about $16,160,596.

                                                1
Federal Requirements

Pursuant to 45 CFR part 74, grantees of Federal awards must implement written accounting
policies and procedures and maintain financial systems that provide for accurate and complete
reporting of grant-related financial data, effective control over grant funds, and allocation of
costs to all benefitting programs. In addition, grantees must establish written procurement
procedures. Grantees are also required to maintain inventory control systems and take periodic
physical inventory of grant-related equipment. In addition, pursuant to 45 CFR § 74.27, the
allowability of costs incurred by nonprofit organizations is determined in accordance with the
provisions of Office of Management and Budget (OMB) Circular A-122, Cost Principles for
Nonprofit Organizations. The CSBG Act establishes the CSBG program and sets the
requirements and guidelines for CSBG funds.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to assess CAANH’s financial viability, capacity to manage and account for
Federal funds, and capability to operate the CSBG Recovery Act program in accordance with
Federal requirements.

Scope

We conducted a limited review of CAANH’s financial viability, financial management system,
and related policies and procedures. This limited-scope review is part of a series of reviews
planned by the Office of Inspector General to provide oversight of funds provided by the
Recovery Act. Therefore, we did not perform an overall assessment of CAANH’s internal
control structure. Rather, we reviewed only the internal controls that pertained directly to our
objective. Our review period for the CSBG Recovery Act program was from inception on July
1, 2009, through May 31, 2010.

We performed fieldwork at CAANH’s facility in New Haven, Connecticut, during June and July
2010.

Methodology

To accomplish our objective, we:

   •    confirmed that CAANH is not excluded from receiving Federal funds;

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed CAANH’s application and implementation of the grant awards for Recovery
        Act funding;


                                                2
   •   reviewed CAANH’s policies and procedures related to the CSBG program;

   •   reviewed CAANH’s by-laws, minutes from Board of Directors meetings, composition of
       the Board, and organizational chart;

   •   performed audit steps to assess the adequacy of CAANH’s current financial systems;

   •   reviewed CAANH’s audited financial statements and audits conducted pursuant to OMB
       A-133 for FYs 2007 through 2009;

   •   performed liquidity and stability analyses of CAANH’s finances for FYs 2008 through
       2009 to determine whether CAANH was financially viable;

   •   reconciled CAANH’s CSBG Recovery Act quarterly expenditure report for the period
       ended March 31, 2010, to its official accounting records and judgmentally selected line
       items transactions to determine if costs claimed were in accordance with Federal
       requirements and CAANH policies and procedures; and

   •   discussed findings with CAANH officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.


                           FINDINGS AND RECOMMENDATIONS

Based on its current financial condition, CAANH’s financial viability is uncertain. Significant
operating deficiencies also existed at CAANH that impact its ability to manage and account for
Federal funds and its capability to carry out CSBG Recovery Act programs in compliance with
Federal requirements. Specifically, CAANH did not ensure that:

   •   its subcontracts contained evidence of competitive bidding, a clear and accurate
       description of services, and services were provided to eligible clients;

   •    its payroll distribution process provided an after-the-fact certification of actual activity
       performed by salaried employees;




                                                    3
    •   its CSBG Recovery Act quarterly financial reports were supported by accounting
        records; and

    •   it properly accounted for equipment purchased with Federal funds.

In addition, CAANH did not fully comply with Federal requirements for bank deposits and
whistleblower protection. The deficiencies occurred because CAANH did not establish adequate
controls and procedures. As a result, CSBG Recovery Act funds may be at risk of not being
properly accounted for or expended in accordance with Federal requirements.

FINANCIAL STABILITY

Federal Requirements

Pursuant to 45 CFR § 74.14(a)(2), the HHS awarding agency may impose additional
requirements if an applicant or recipient has a history of poor performance, is not financially
stable, or has a management system that does not meet the standards in this part.

Poor Financial Stability

Short-Term Liquidity

Financial data indicates that CAANH’s financial viability is uncertain. An analysis of CAANH’s
audited financial statements from FYs 2008 through 2009 raises questions on the organization’s
financial solvency. Specifically:

    •   CAANH’s current ratio (current assets divided by current liabilities) remained
        significantly low at 0.36 for both of the last the two fiscal years. Generally, for an
        organization to be considered fiscally sound, its currents assets should be valued higher
        than its current liabilities.

    •   CAANH’s working capital (current assets minus current liabilities) decreased
        significantly by $3.65 million in FY 2008 and again by $3.44 million in FY 2009.
        The negative net working capital means an organization has poor operating liquidity.

Long-Term Stability

CAANH’s total debt (liabilities) for FY 2009 was $5,389,929, and its total assets were
$2,111,430. Thus, CAANH’s liabilities exceed its total assets by 252 percent. In general, the
lower an organization’s reliance on debt for assets formation, the greater the organization’s long-term
stability because excessive debt can lead to a heavy interest and principal repayment burden.

Financial instability could result in disruption of services to eligible recipients.




                                                     4
PROCURING SUBCONTRACT SERVICES

Federal Requirements

Pursuant to 45 CFR § 74.43, all procurement transactions shall be conducted in a manner to
provide, to the maximum extent practical, open and free competition. In addition, CAANH
procurement procedures require competitive bidding under the following cost thresholds: (1)
from $2,000 to $9,999, three current written quotes from three different vendors; (2) from
$10,000 to $19,999, three current written bids must be obtained based upon specifications or a
request for proposal provided to vendors; and (3) from $20,000 or more, a request for proposal
must be published in at least three local news outlets.

Under the Recovery Act, CSBG services may be provided to those who are within 200 percent of
the poverty line. Furthermore, OMB Circular A-122, Attachment A, part A, § 2 on factors
affecting allowability of costs states that to be allowable under an award, costs must be
adequately documented.

Lack of Competitive Bids and Unsupported Subcontract Costs

CAANH executed four subcontracts that exceeded the specified thresholds without evidence of
competitive bidding or a clear and accurate description of the technical requirements and scope
of services for the material(s), good(s), or service(s) to be procured. In addition, our review of
subcontract costs totaling $41,455 for the program period ending March 31, 2010, disclosed
payments to four subcontractors without adequate evidence of services rendered to eligible
clients. For example, one subcontractor’s invoice contained charges for computer literacy
training courses. However, the invoice charges for each course billed were not billed at the
correct rate or supported by the names of eligible clients served and the dates of attendance.

CAANH did not have adequate controls to ensure that it complied with procurement procedures
for price competition. As a result, there is no assurance that the CSBG Recovery Act program
benefitted from quality services obtained in a cost effective manner and that services were
provided only to eligible clients at the approved rate.

PAYROLL DISTRIBUTION SYSTEM

Federal Requirements

Pursuant to OMB A-122, Attachment B, paragraph 8.m., the distribution of salaries and wages
must be supported by personnel activity reports. The activity reports maintained by nonprofit
organizations must meet the following standards:

   •   reflect an after-the-fact distribution of the actual activity of each employee,

   •   account for the total activity for which each employee is compensated,




                                                 5
   •   be signed by the employee or by a responsible supervisory official having firsthand
       knowledge of the activities performed, and

   •   be prepared at least monthly and coincide with one or more pay periods.

In addition, OMB A-122, Attachment B, paragraph 17 on fundraising costs states that costs of
organized fundraising, including financial campaigns, endowment drives, solicitation of gifts and
bequests, and similar expenses incurred solely to raise capital or obtain contributions are
unallowable.

Inadequate Payroll Distribution Process

CAANH did not ensure its payroll distribution process provided an after-the-fact certification of
actual activity performed by salaried employees; rather, CAANH allocated employee efforts based
on a predetermined budget. For example, we noted at least one employee with an approved
budgeted salary, fringe benefits, and other costs of $109,100, who charged 100 percent of his or
her activity to the CSBG Recovery Act program. However, this individual estimated that about
10 percent of his or her total activity, or $10,910, would be related to fundraising.

CAANH did not have procedures to ensure that its payroll distributions process (1) reflects
actual work performed by staff at least on a monthly basis and (2) identifies and segregates
unallowable activity. As a result, CAANH’s payroll distribution process does not properly
account for Federal funds nor provides for current, accurate, and complete results of CSBG
Recovery Act activity.

FINANCIAL REPORTING

Federal Requirements

Pursuant to 45 CFR § 74 21(b), recipients’ financial management systems shall provide for
accurate, current, and complete disclosure of the financial results of each HHS-sponsored project
or program. In addition, if the HHS awarding agency requires reporting on an accrual basis from
a recipient that maintains its records on other than an accrual basis, the recipient shall not be
required to establish an accrual accounting system. These recipients may develop such accrual
data for their reports on the basis of an analysis of the documentation on hand.

In addition, OMB Circular A-122, Attachment A, part A, § 2 on factors affecting allowability of
costs states that to be allowable under an award, costs must be determined in accordance with
generally accepted accounting principles and be adequately documented.

Quarterly Expenditure Report Not Supported by Accounting Records

CAANH did not ensure that its accounting records supported its CSBG Recovery Act quarterly
financial reports. Specifically, CAANH’s March 31, 2010, quarterly report shows $281,825 in
cumulative Recovery Act expenditures; however, CAANH’s accounting records only indicates



                                                6
$243,339 in total Recovery Act expenditures. CAANH could not adequately explain the
difference of $38,486 ($281,825–$243,339).

CAANH has not established procedures for the preparation of quarterly expenditure reports. The
deficiencies in financial reporting were previously identified as a material weakness in
CAANH’s single audit reports for FYs 2007, 2008, and 2009. As a result, CAANH’s quarterly
expenditures report do not reflect current, accurate, and complete results of CSBG Recovery Act
activity.

PROPERTY MANAGEMENT

Federal Requirements

Pursuant to 45 CFR § 74.34(f), recipients are required to maintain an accurate property
management system to account for equipment acquired with Federal funds and federally owned
equipment.

In addition, pursuant to 45 CFR § 74.34(f)(3), a recipient shall take a physical inventory of
equipment and reconcile the results with the equipment records at least once every two years.
Inadequate Property Management

CAANH did not properly account for equipment purchased with Recovery Act funds. In
addition, CAANH did not conduct a physical equipment inventory at least every two years to
ensure the accuracy of its equipment records. For example, CAANH’s accounting records show
that from the inception of the CSBG Recovery Act program on July 1, 2009, to March 31, 2010,
a total of $12,817 in equipment purchases had been charged directly to the CSBG Recovery Act
program. This equipment consisted mainly of furniture and computer purchases. However, the
inventory records did not contain required information on (1) the source and whether title vests
in the applicant or the Federal government; (2) the location, use, and condition of the property;
(3) ultimate disposition data; (4) location and condition of the equipment and the date the
information was reported; (5) acquisition date (or date received, if the equipment was furnished
by the Federal Government) and cost; and (6) how one can calculate the percentage of HHS’s
share in the cost of the equipment as required.

CAANH did not have adequate property management procedures to conduct physical inventories
and identify and account for all Federally owned property. As a result, computer equipment
purchased under the CSBG Recovery Act program may be at risk for being lost, stolen, or used
without authorization.




                                                7
BANK DEPOSITS

Federal Requirements

Pursuant to 45 CFR § 74.22(k), “Recipients shall maintain advances of Federal funds in interest
bearing accounts.”

Non-interest Bearing Accounts

CAANH did not maintain advances of Federal funds in interest bearing accounts. As of April
30, 2010, CAANH’s deposits in non-interest bearing accounts at one bank exceeded $770,000.
CAANH does not have procedures to ensure that advances of Federal funds are maintained in an
interest bearing account as required by Federal regulation. As a result, significant amounts of
interest income may not have been realized.

WHISTLEBLOWER PROTECTION

Federal Requirements

Pursuant to Section 1553(a) of the Recovery Act (Whistleblowers Policy), an employee of any
non-Federal employer receiving covered funds may not be discharged, demoted, or otherwise
discriminated against as a reprisal for disclosing, including a disclosure made in the ordinary
course of an employee’s duties, to the Board, an inspector general, the Comptroller General, a
member of Congress, a State or Federal regulatory or law enforcement agency, or a person with
supervisory authority over the employee. In addition, section (e), Requirement to Post Notice of
Rights and Remedies, provides that any employer receiving covered funds shall post notice of the
rights and remedies provided under this section.

Lack of Policies and Procedures for Whistleblower Protection

CAANH has not established an official policy on whistleblower protection as required by
Federal and DSS contract provisions. Although CAANH has drafted a whistleblower policy, its
Board of Directors has not approved it nor has it been posted. As a result, CAANH employees
are largely unaware that their employer prohibits reprisals against employees who disclose
evidence of gross mismanagement; a gross waste; a substantial and specific danger to public
health or safety; an abuse of authority; or a violation of law, rule, or regulation related to the
implementation or use of covered funds.




                                                 8
RECOMMENDATIONS

We recommend ACF work with the State to ensure that CAANH:

   •   establish adequate controls to ensure compliance with competitive bidding procedures;

   •   make a financial adjustment for subcontract services that cannot be supported by
       evidence of services rendered to eligible clients including the $41,455 identified in
       this report;

   •   establish procedures to ensure that its payroll distributions process reflects actual work
       performed by staff;

   •   make a financial adjustment for unallowable fundraising activities including the $10,910
       identified in this report for one individual;

   •   establish procedures to identify and segregate fundraising activity;

   •   make a financial adjustment for $38,486 in costs not adequately supported in its
       March 31, 2010, quarterly expenditure report or provide the necessary documentation;

   •   establish procedures to ensure that financial reports such as quarterly expenditures reports
       reflect current, accurate, and complete results of program activity;

   •   establish adequate property management procedures to identify and account for all
       Federally owned property and conduct physical inventories as required;

   •   establish procedures to ensure that Federal funds are maintained in interest bearing
       accounts; and

   •   establish and disseminate official whistleblower policies and procedures.

CAANH COMMENTS

In written comments to our draft report, CAANH generally agreed with our recommendations.
CAANH’s comments are included in their entirety as the Appendix.




                                                 9
APPENDIX
                                                        Page 1 of 4
APPENDIX: COMMUNITY ACTION AGENCY OF NEW HAVEN, INC. COMMENTS

                        Community Action Agency of New Haven, Inc. 

                                 New Haven, Connecticut 


Response to Department Of Health and Human Services Report Number: A-OI-IO-02S04
                                   Submitted by
                                   Mary Orcutt
                                Director of Finance




  January 31,2011

  Michael J. Armstrong
  Regional Inspector General for Audit Services
  Department of Health and Human Services
  Office of Auditor Services, Region I
  John F. Kennedy Federal Building
  Room 2425
  Boston, MA 02203




  Dear Mr. Armstrong:

  Thank you for the opportunity to respond to the validity of the facts and reasonableness
  of the recommendations in your report entitled "Result of Limited Scope Review at
  Community Action Agency of New Haven, Inc." dated January 26, 2011.


     1. 	 Procuring Subcontract Services: CAANH did not ensure that Its subcontracts that
          exceeded the specified thresholds contained evidence of competitive bidding or a clear
          and accurate description of services to be procured.

  CAANH Response; Community Action Agency of New Haven (CAANH) recognizes
  and respects the importance of following all State and Federal guidelines. The
  agency also adheres to its own robust policy on competitive bidding.

  However, with regard to the CSBG Recovery Act program, the process set out by
  the State of Connecticut Department of Social Services (DSS) did not support or
  require competitive bidding. This is to say, if CAANH followed State and Federal
  guidelines, we could not also comply with the rules as established by DSS.

  Although not required by the State, CAANH provided potential partners with clear
  and accurate descriptions of services to be procured, and sought to acquire
  competitive bids whenever possible.




          The Community Action Agency of New Haven offers pathways to prosperity to those
                        in poverty in the Greater New Haven area through:
            +Service      +Collaboration         +Advocacy         +Knowledge Generation
                                                                                                      Page 2 of 4




Recom menda tion:
                                                                                   proced ures.
        Establish adequa te controls to ensure compliance with competitive bidding
                                                                   ensure compli ance with
CAANH Response: CAANH already has adequa te controls in place to
                                                                        and proced ures to ensure
compe titive bidding proced ures. We will be reviewing CAANH's policies
sufficiency.
                                                                                   suppor ted by evidence of
        Make a financial adjustm ent for subcon tract services that cannot be
                                                                                  In this report.
        services rendere d to eligible clients including the $41,455 identiffed
                                                                           on every partici pant in the CSBG
CAANH Response: CAANH has made an exhaus tive revIew of all files
                                                                ants ineligib le or withou t adequa te
Recovery Act program . This review found very few particip
                                                                          of Social   Services.
suppor ting inform ation. The Agency is reimbursing the Depart ment




                                                                               distribution process
    2. Payroll Distribution System: CAANH did not ensure that its payroll
       provided an after-th e fact certification of actual activity perform by salaried employees.

Recom mendat ion:
                                                                                        actual work
         Establish proced ures to ensure that its payroll distribution process reflects
                                                                                 .
         perform ed by staff.
                                                                          and has Invested In payroll
CAANH Response: CAANH has revised its payroll distribu tion process
                                                               ed by salarie d employ ees.
softwa re that suppor ts reporti ng of actual activity perform

                                                                                      g the $10,910
         Make a financial adjustm ent for unallowable fund raising activities includin
         identified in this report for one individual.
                                                                          Recovery Act program at the 

 CAANH Response: CAANH Included fund raising activities in the CSBG
                                                                       CAANH has since made the 

 reques t of the State of Connec ticut Depart ment of Social Services.
                                                                       program , including the $10,910 

 financial adjustm ent elimina ting all fundraising expens es from the
 identified. 




          Establish proced ures to identify and segrega te fundraising activity
                                                                              sing activities from program
 CAANH Response: It is CAANH's policy and practice to segreg ated fundrai
                                                                          d in financial softwa re and 

 activities. To suppor t this policy and practice, the Agency has investe
                                                                        and create reports . 

 payroll softwa re that further improv e our ability to track expens es
                                                                                                Page 3 of 4




    3. 	 Financial Reporting: CAANH did not ensure its CSSG Recovery Act quarterly financial reports
         were supported by accounting records.

Recommendation: Make a financial adjustment for the $38,486 In costs not adequately supported'in its
March 31, 2010 quarterly expenditure report or provide the necessary documentation.


CAANH Response: CAANH does consistently report expenditures in a current, accurate and complete
manner. However, expenses accrued in the March 2010 Quarterly Expenditure Report were
determined to be Inappropriate because the invoice dates were not clear and appeared to indicate an
April 2010 dates of service.

Additionally, these accruals were not Inputted Into the financial software system properly. The
correcting adjustment has been made and the appropriate procedure has been reviewed for
sufficiency. Documentation of this correction was sent to you September 3,2010 in response to your
initial audit findings.




   4. 	 Property Management: CAANH did not ensure it properly accounted for equipment purchased
        with Federal Funds.

Recommendation: Establish adequate property management procedures to identify and account for all
Federally owned property and conduct physical inventories as required.

CAANH Response: CAANH maintains an exhaustive inventory of all equipment purchases. This
inventory is being augmented and updated to include information to identify and account for all
Federally owned property. In addition, equipment is being tagged and physical inventories are being
updated.




   5. 	 Bank Deposits: CAANH did not maintain advances of Federal Funds in interest bearing
        accounts. As of April 20, 2010 CAANH's depOSits in non-interest bearing accounts at one bank
        exceeded $770,000. CAANH does not have procedures to ensure that advances of Federal funds
        are maintained In an interest bearing account as required by Federal regulations

Recommendation: Establish procedures to ensure that Federal Funds are maintained in interest bearing
accounts.

CAANH Response: In response to recommendations made during this audit, CAANH has expanded Its
relationship with several banks, opening interest bearing and non-interest bearing accounts that
provide adequate FDIC coverage in order to ensure the security of those funds. This process is
                                                                                                Page 4 of 4




  ongoing and we will continue to monitor the balances and types of accounts to ensure that Federal
  Funds are secure and held In Interest bearing accounts.




      6. 	 Whlstleblower Protections: CMNH has not established an official whistleblower protection as
           required by Federal and DSS contract provisions. Although CAANH has drafted a whistleblower
           policy It has not been approved by the Board of Directors nor has it been posted.

  Recommendation: Establish and disseminate official whistleblower policies and procedures.

  CAANH Response: The Whlstleblower pollcV was approved by CAANH's Board of Directors at their
  November 2010 meeting, and is available to employees In the employee handbook; on bulletin boards
  In common areas; and on the Agency's employee-access website.




  Please contact us should you have any questions or need further information.

  Sincerely,

J/Ill!aAM tf)A ~u9J&­
 f~a~orcuh
  Director of Finance
